OIG Audit Report Gr-70-09-001

Community Capacity Development Office Grants to the Community Agencies Corporation of New Jersey for the Clinton Hill Weed and Seed Site, Newark, New Jersey 

Audit Report GR-70-09-001



October 2008
Office of the Inspector General


Executive Summary


 The U.S. Department of Justice (DOJ) Office of the Inspector General (OIG), Audit Division, has completed an audit of five grants awarded to the Community Agencies Corporation of New Jersey (CAC). The Office of Justice Programs (OJP), Community Capacity Development Office (CCDO) awarded these grants totaling $1,025,000 under the Weed and Seed Program to CAC as the fiscal agent in support of the Clinton Hill Weed and Seed site operated in the South Ward and Clinton Hill area of Newark, New Jersey. The CCDO Weed and Seed program was intended to prevent, control, and reduce violent crime, drug abuse, and gang activity in high-crime neighborhoods. 
 The objective of our audit was to determine whether the costs reimbursed under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and the terms and conditions of the grants. We also assessed CAC’s performance in meeting the grant objectives and its overall accomplishments. 
We determined that CAC did not fully comply with the grant requirements we tested. We reviewed compliance with six essential grant conditions and found weaknesses in three of the six areas: (1) agreement expenditures, (2) requests for grant funding, and  (3) reporting. 
 We determined that CAC commingled grant funds for three out of the five grants we reviewed. We also determined that CAC charged $12,753 for unallowable expenditures that were incurred after the grant period had expired. Additionally, we identified $16,798 of unsupported funding requests because CAC took an advance drawdown of grant funds without incurring the actual expenditures. Because of these deficiencies, we identified $29,551 in questioned costs.1  Lastly, we found that CAC did not always comply with prescribed cash management practices, and did not include matching expenditures or unliquidated obligations on its quarterly Financial Status Reports as required under the reporting guidelines. 
 In the area of program performance, for those grants specific to the implementation of the Weed and Seed strategy, we determined the expenditures made by CAC were consistent with and generally working towards the accomplishment of the goals and objectives of the grants. 
 These items are discussed in detail in the Findings and Recommendations section of this report. Our audit objectives, scope, and methodology appear in Appendix I. 

We discussed the results of our audit with CAC officials and have included their comments in the report, as applicable. In addition, we provided CAC and OJP a copy of the draft report and their responses can be found in the appendices. Our analysis of both responses, as well as a summary of actions necessary to close the recommendations can be found in Appendix V of this report.

  




Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs. However, not all findings are dollar-related. See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs. 








Return to OIG Home Page